Case: 16-17573

Date F(t:ledl "0)5/22/2019

Page: 1 of 6

[DO NOT PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 16-17573
Non-Argument Calendar

D.C. Docket No. 1:11-md-02218-TWT
In Re: CAMP LEJEUNE, NORTH CAROLINA WATER CONTAMINATION
LITIGATION.

LEANDRO PEREZ, et al.,
Plaintiffs,
ANDREW STRAW,
JAMES NATHANIEL DOUSE,
ERICA Y. BRYANT,
ROBERT BURNS,
DANIEL J. GROSS, II,
ROBERT PARK,
SHARON KAY BOLING,
LINDA JONES,
ESTELLE RIVERA,
Plaintiffs-Appellants,
versus
UNITED STATES OF AMERICA,
DEPARTMENT OF THE NAVY,
United States of America,
ADMINISTRATOR OF THE ENVIRONMENTAL PROTECTION AGENCY,

Case: 16-17573

Date F(Qedf "0)5/22/2019

Page: 2 of 6

DIVISION DIRECTOR, DEPARTMENT OF ENVIRONMENTAL
PROTECTION AGENCY,
DEPARTMENT OF DEFENSE,
SECRETARY OF THE NAVY,
Defendants-Appellees.

Appeal from the United States District Court
for the Northern District of Georgia

(May 22, 2019)
Before TJOFLAT, MARTIN and NEWSOM, Circuit Judges.
PERCURIAM:
Andrew Straw, James Douse, Erica Bryant, Robert Bums, Daniel Gross,
Robert Park, Sharon Boling, Linda Jones, and Estelle Rivera (collectively,
"Plaintiffs") appeal the District Court's dismissal of their actions alleging that the
Government negligently injured them by providing contaminated water while they
inhabited Marine Corps Base Camp Lejeune in the 1970s and 1980s.
On appeal, Plaintiffs argue that the District Court committed four errors.
First, they argue that the District Court erred in determining that their claims are
barred by the discretionary-function exception to the Federal Tort Claims Act ("the
FTCA"), 28 U.S.C. § 2680(a). Second, they argue that the District Court erred in
determining that North Carolina's ten-year statute of repose bars their claims.

2

Case: 16-17573

Date F{!ledf t?):i/22/2019

Page: 3 of 6

Third, they argue that the District Court erred in determining that the Feres 1
doctrine bars their claims, as their injuries were not incidental to their military
service. Fourth and finally, Plaintiff Straw argues that the District Court abused its
discretion by denying his motion for default judgment because the Government
failed to respond to his pleading.
Because we hold that North Carolina's ten-year statute of repose applies to
and bars Plaintiffs' claims, we affirm the District Court's judgment without
reaching the FTCA, Feres doctrine, and default judgment issues.
I.
We review de nova the District Court's granting of a motion to dismiss. See

Zelaya v. United States, 781 F.3d 1315, 1321 (11th Cir. 2015).
In this case's prior interlocutory appeal, we held that "North Carolina's
statute of repose, N.C. Gen. Stat.§ 1-52(16) (2010), applies to the plaintiffs'
claims, and it does not contain an exception for latent diseases." Bryant v. United

States, 768 F.3d 1378, 1385 (11th Cir. 2014). Plaintiffs now argue that this Court
clearly erred in deciding Bryant. Even if Plaintiffs are correct-which they are
not2-it is axiomatic that "a prior panel's holding is binding on all subsequent

1

Feres v. United States, 340 U.S. 135, 71 S. Ct. 153 (1950).
In Stahle v. CTS Co1p., 817 F.3d 96 (4th Cir. 2016), the Fourth Circuit addressed the
same question we confronted in B1yant. Though the Fourth Circuit reached a different
conclusion, one member of the panel went out of her way to note that "[t]he Supreme Court of
North Carolina itself has sent mixed signals about the scope of§ 1-52(16)." Id. at 114 (Thacker,
J., concurring). What's more, the four federal circuit courts that have interpreted§ 1-52(16)
2

3

Case: 16-17573

Date F{llledf -elp/22/2019

Page: 4 of 6

panels unless and until it is overruled or undermined to the point of abrogation by
the Supreme Court or by this court sitting en bane." In re Lambrix, 776 F.3d 789,
794 (11th Cir. 2015) (per curiam) (quoting United States v. Archer, 531 F.3d 1347,
1352 (11th Cir. 2008)). Neither the Supreme Court nor this Court sitting en bane
has overruled Bryant, so its holding remains good law.
In addition to arguing squarely against precedent, Plaintiffs now contend that
a six-year statute of repose-that is, not the ten-year "statute of repose that has
been at issue for the entirety of this litigation," 3 but another one-applies to their
claims. The new statute of repose provides that "[n]o action to recover damages
based upon or arising out of the defective or unsafe condition of an improvement
to real property shall be brought more than six years from the later of the specific
last act or omission of the defendant giving rise to the cause of action." N.C. Gen.
Stat. § 1-50(a)(5)(a). Plaintiffs would rather be subject to the six-year statute of
repose because it contains an exception for defendants who are "in actual
possession or control ... of the improvement at the time the defective or unsafe
condition constitutes the proximate cause of the [plaintiffs injury]." Id. § I50(a)(5)(d).

have expressed "different views of the statute's scope." Id. (collecting cases). Given the
difficulty of this question and the diversity of interpretations it has produced, Plaintiffs'
suggestion that we plainly erred in Bryant is plainly misguided.
3
In re Camp Lejeune N.C. Water Contamination Litig., 263 F. Supp. 3d 1318, 1336
(N.D. Ga. 2016).
4

Case: 16-17573

Date F{lledf "0)3/22/2019

Page: 5 of 6

PlaintiffRivera4 contends that this six-year statute of repose applies because
she "alleged that [her] injuries arose out of the defective and unsafe conditions of
improvement to real property" at Camp Lejeune. Rivera Br. at 9-10. The problem
with this argument is that Rivera's allegations are conclusory, and "the tenet that a
court must accept as true all of the allegations contained in a complaint is
inapplicable to legal conclusions." Ashcroft v. Iqbal, 556 U.S. 662, 678, 129 S. Ct.
1937, 1949 (2009).
Section l-50(a)(5), the six-year statute of repose, "deals expressly with
claims arising out of defects in improvement to realty caused by the performance
of specialized services of designers and builders." Trs. of Rowan Tech. Coll. v. J.
Hyatt Hammond Assocs., Inc., 328 S.E.2d 274, 279-80 (N.C. 1985). "In order for

this statute to apply, ... the party sued must have been involved in the designing,
planning, or construction of the defective or unsafe improvement." Feibus & Co.
v. Godley Constr. Co., 271 S.E.2d 385, 391 (N.C. 1980). It is, "in essence, an

architect's and builder's malpractice statute." Trs. ofRowan Tech. Coll., 328
S.E.2d at 280. So to be subject to this statute of repose rather than the ten-year
statute of repose, Plaintiffs were required to allege defects in the design or
construction of the wells at Camp Lejeune. Bryant and Wright do not do so.

4

Three Plaintiffs-Bryant, Wright, and Rivera-argue that the causes of action pleaded
in their complaints subject their claims to the six-year statute ofrepose. None of them is correct,
but Plaintiff Rivera advances the strongest argument, so we use it as an example.
5

Case: 16-17573

Date F{~ -elp/22/2019

Page: 6 of 6

And-though she advances the strongest argument-neither does Rivera. The
closest Rivera comes to alleging a construction defect is when she claims that overpumping of the base's water wells, in addition to deficient maintenance and
inspection, caused the wells to become "defective and unsafe." Rivera Br. at 17.
But this is conduct that allegedly occurred after the construction of the wells, and
thus cannot support a claim that the wells were defectively designed or
constructed.
II.
As we held five years ago, Plaintiffs' claims are subject to the ten-year
statute of repose under N.C. Gen. Stat. § 1-52(16). The wells at issue in this case
were taken out of use in 1987, and the earliest claim by a Plaintiff was made in
1999-two years after the statute of repose had cut off Defendants' liability.

AFFIRMED.

6

Case: 16-17573

Date F{ffedf "0)3/22/2019

Page: 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
ELBERT !'ARR TUTTLE COURT OF APl'EALS BUJLDING
56 Forsyth Street, N.W.

Atlanta. Georgia 30303
For nilcs and forms visit
ivww.cal I u:;courts.pov

David J. Smith
Clerk of Court

May 22, 2019
MEMORANDUM TO COUNSEL OR PARTIES
Appeal Number: 16-17573-GG
Case Style: Andrew Straw v. USA, et al
District Court Docket No: I: I l-md-02218-TWT

This Court requires all counsel to file documents electronically using the Electronic Case Files ("ECF") system,
unless exempted for good cause. Enclosed is a copy of the court's decision filed today in this appeal. Judgment has this
day been entered pursuant to FRAP 36. The court's mandate will issue at a later date in accordance with FRAP 41 (b ).
The time for filing a petition for rehearing is governed by I Ith Cir. R. 40-3, and the time for filing a petition for rehearing
en bane is govemed by I Ith Cir. R. 35-2. Except as otherwise provided by FRAP 25(a) for inmate filings, a petition for
rehearing or for rehearing en bane is timely only if received in the clerk's office within the time specified in the rules.
Costs are governed by FRAP 39 and 11th Cir.R. 39-1. 111e timing, format, and content of a motion for attorney's fees and
an objection thereto is governed by 11th Cir. R. 39-2 and 39-3.
Please note that a petition for rehearing en bane must include in the Certificate of Interested Persons a complete list of all
persons and entities listed on all certificates previously filed by any party in the appeal. See 11th Cir. R. 26.1-1. In
addition, a copy of the opinion sought to be reheard must be included in any petition for rehearing or petition for
rehearing en bane. See I Ith Cir. R. 35-5(k) and 40-1 .
Counsel appointed under the Criminal Justice Act (CJA) must submit a voucher claiming compensation for time spent on
the appeal no later than 60 days after either issuance of mandate or filing with the U.S. Supreme Court of a petition for
writ of certiorari (whichever is later) via the eVoucher system. Please contact the CJA Team at (404) 335-6167 or
cja_ evoucher@cal l .uscourts.gov for questions regarding CJA vouchers or the eVoucher system.
Pursuant to Fed.R.App.P. 39, costs taxed against appellants.
Please use the most recent version of the Bill of Costs form available on the court's website atwww.call.uscourls.gov.
For questions concerning the issuance of the decision of this court, please call the number referenced in the signature
block below. For all other questions, please call Joe Caruso, GG at (404) 335-6177.
Sincerely,
DA YID J. SMITH, Clerk of Court
Reply to: JeffR. Patch
Phone#: 404-335-6151
OPIN-IA Issuance of Opinion With Costs

